 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


                 Letter Report:

   A Review of Border Patrol’s Compliance
   with Public Law 108-334 and the Use of
    Checkpoints within the Tucson Sector




    Office of Inspections and Special Reviews


                                  November 2005
OIG-06-08
                                    (Revised)
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                        November 9, 2005


MEMORANDUM FOR:              Robert C. Bonner
                             Commissioner
                             Customs and Border Protection

                             David V. Aguilar
                             Chief
                             Office of Border Patrol


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     A Review of Border Patrol’s Compliance with
                             Public Law 108-334 and the Use of Checkpoints
                             within the Tucson Sector

In June 2005, the Homeland Security Appropriations Subcommittee for the House of
Representatives (House Subcommittee) requested that we assess Border Patrol’s compliance with
Public Law (P.L.) 108-334. Specifically, the subcommittee had concerns that the Border Patrol was
not meeting the following provisions:

       1) That none of the funds appropriated in this Act may be obligated to construct permanent
          Border Patrol checkpoints in Customs and Border Protection’s Tucson sector;

       2) That the Commissioner of Customs and Border Protection is directed to submit to the
          Committees on Appropriations of the Senate and the House of Representatives a plan for
          expenditure that includes the location, design, costs, and benefits of each proposed
          Tucson sector permanent checkpoint; and

       3) That Customs and Border Protection shall relocate its tactical checkpoints in the Tucson
          sector at least an average of once every 14 days in a manner designed to prevent persons
          subject to inspection from predicting the location of any such checkpoint.
The following guidance was included in the House Subcommittee’s request letter to assist us in our
assessment:

    The intent of this language is to ensure that Border Patrol uses tactical checkpoints,
    which are moved to different locations at least an average of once every 2 weeks to
    prevent predictability. It is not simply to shut down the checkpoint for a few minutes or
    hours in the middle of the night, only to continue at the same location the next morning.

We conducted our review in two phases. First, we interviewed senior Border Patrol officials and
program managers at headquarters. Before transferring to headquarters, several served in key
management positions in the Tucson sector and provided important historical and operational insight
regarding sector checkpoint operations. Second, we conducted fieldwork in the Tucson sector and
interviewed both supervisory and line Border Patrol agents directly involved in checkpoint
operations. We also inspected checkpoint log books, gathered source documentation to include
copies of approved permits that allow Border Patrol to conduct checkpoint operations at designated
locations within Arizona, physically inspected and observed day and night operations at the
Interstate 19 (I-19) checkpoint in Santa Cruz county, and physically inspected the State Route 90
(SR-90) checkpoint in Cochise county.1

We conclude that there is no evidence that funds were used to construct permanent checkpoints
within the Tucson sector. Further, the Commissioner of Customs and Border Protection did submit a
plan for expenditure that includes the location, design, costs, and benefits of each proposed Tucson
sector permanent checkpoint. Finally, the Border Patrol’s current practice of moving or closing
checkpoints an average of at least every 14 days complies with the statute. However, it does not
comply with the interpretation stated in the House Subcommittee’s letter to us.2

Efforts to Balance Legislative Requirements with Tiered Enforcement Operations

Laws governing the use of checkpoints within the Tucson sector first appeared in Fiscal Year (FY)
1999 and sought to prohibit the Border Patrol from constructing permanent checkpoints. By FY
2003, in addition to prohibiting permanent checkpoint construction, the law required that any non-
permanent (or tactical) checkpoints located within the sector be moved on a periodic basis, at least
every seven days. These two provisions were carried forward into FY 2004 and FY 2005 legislation.
In FY 2005, however, the requirement to move non-permanent checkpoints every 7 days was
expanded to 14 days to provide the Border Patrol with greater flexibility. Tucson is the only Border
Patrol sector that must comply with these requirements.

The Border Patrol attempts to balance legislative requirements with the need to maintain permanent
checkpoints as part of its overall strategy to control the border through tiered (or layered)
enforcement operations. The first tier is called “line watch operations.” Most of the enforcement
assets in the Tucson sector are deployed directly along its 262-mile border with Mexico. Border


1
  Appendix A contains photographs of both the I-19 and SR-90 checkpoints. During our fieldwork, the SR-90
checkpoint was not operational due to inclement weather.
2
  The Border Patrol moves its active checkpoint operations from site to site intermittently. At some checkpoint sites, the
Border Patrol will leave equipment off-road when not in operation. The fact that it does not physically relocate its
equipment and that it continues to use that location seems to be what the letter seeks to preclude.


                                                            2
Patrol agents assigned to line watch operations maintain a high profile and are responsible for
turning back, or arresting anyone they encounter attempting illegally to enter the United States. The
second tier is called “patrol operations.” Patrol operations require a smaller contingent of agents and
are deployed behind, e.g., further inland, those responsible for line watch operations. The primary
responsibility of agents participating in patrol operations is to detect and arrest any illegal border
crosser that makes it past agents conducting line watch operations. The third tier is known as
“checkpoint operations.” Checkpoint operations are enforcement operations that occur at
transportation hubs, such as train stations, bus stations, airports, as well as at certain locations along
highways. Those that occur along highways are called traffic checkpoints. Traffic checkpoints are
designed to deny illegal border crossers major routes of egress from the border to major cities within
the United States. According to Border Patrol officials, each tier complements and strengthens the
others.

Border Patrol officials said that the best approach to traffic checkpoint operations within the Tucson
sector is to have a mixture of both permanent and non-permanent checkpoints. However, because
P.L. 108-334 prohibits the construction of permanent checkpoints, the Border Patrol may operate
non-permanent checkpoints at eight different pre-approved locations within the sector.3 The
checkpoints generally consist of a small trailer, directional cones and signage, water and gas tanks,
patrol vehicles, portable toilets, generators, canopies, and floodlights for night operations. They lack
the infrastructure found at permanent checkpoints such as landlines for telephone and computer
connectivity, climate controlled work areas and a kennel, and heavy equipment to assist with off-
loading trucks that may be carrying illegal contraband. The Tucson checkpoints also lack special
commuter and trucking lanes that improve checkpoint operations and the movement of traffic.

During our fieldwork in the Tucson sector, we observed several shortcomings of checkpoints that do
not have permanent infrastructure. For example, agents at the I-19 checkpoint stopped a vehicle on
the suspicion that a passenger was traveling with fraudulent documents. It took 20 minutes for the
agents to call the nearest field office with their cell phones to verify the authenticity of the
documents. At a permanent checkpoint, this kind of verification would take less than five minutes,
as agents would have a direct connection to important automated law enforcement and immigration
databases.4 Further, during this 20-minute period, the passenger sat in the hot weather under a
canopy in a lawn chair immediately adjacent to the checkpoint trailer. Although there is an air-
conditioned trailer on site, the passenger was not allowed in because it stored extra safety equipment,
back-up radios, and a gun vault. The checkpoint trailer is not used to process or hold persons who
present a risk of flight, or a risk to agent safety. Had this stop occurred at a permanent checkpoint,
the passenger could have been detained in a secure, climate controlled area until the end of the shift
and then transported to the nearest Border Patrol field office for processing. Instead, after it was
verified that the passenger’s documents were fraudulent, an agent had to leave his checkpoint duties
and drive the person to the nearest field office for processing, a 40 minute commute each way.



3
  Appendix B contains a map of checkpoint locations in the Tucson sector.
4
  At the I-19 checkpoint, the only direct connectivity to these important law enforcement and immigration databases is
via a satellite link. However, agents prefer to call the nearest field office to run the records checks because it usually
takes 15 to 20 minutes to log into the satellite system and establish connectivity. Once connectivity is established, the
satellite link will automatically disconnect after 15 minutes of inactivity because of DHS’ security restrictions – making
the agent start the logon process over again. Agents find the feature cumbersome.


                                                            3
Supreme Court Rulings and Other Factors Affect Checkpoint Operations

In addition to legislative requirements, Border Patrol attempts to comply with Supreme Court
decisions on checkpoint operations, as well as with safety standards set by the Arizona Department
of Transportation (ADOT). Border Patrol officials expressed concern that the requirement to move
checkpoints on average of once every 14 days to prevent persons subject to inspection from
predicting the locations of such checkpoints could turn non-permanent checkpoint operations into
what could be construed as or resembling a roving patrol.

The Supreme Court held in U.S. v. Martinez-Fuerte, 428 U.S. 543 (1976) that Border Patrol agents
may constitutionally stop and question motorists at checkpoints without “individualized or
reasonable suspicion.” In an effort to comply with this and other cases and to ensure that their non-
permanent checkpoints are not construed as roving patrols, Border Patrol has conducted extensive
legal analysis. The product of this analysis has been operations manuals that guide checkpoint
operations, requiring that they be: 1) a reasonable distance from the border not to exceed 100 air
miles; 2) planned in advance by a supervisor and not line Border Patrol agents; 3) well-advertised in
advance by signs and cones; and, 4) lighted and marked so that motorists can see that other vehicles
are being stopped and that Border Patrol agents are in charge.

By contrast, roving patrols are operated to maintain an element of surprise when stopping vehicles
and are not designed to adhere to Supreme Court provisions for normal checkpoint operations.
Because they operate in this manner, roving patrols forfeit the advantage of not having to conform to
the reasonable suspicion standard before stopping and questioning motorists. The Supreme Court
has held that Border Patrol agents on roving patrol may stop a vehicle only if they have reasonable
suspicion, based on specific articulable facts that the vehicle contains aliens who may be illegally in
the United States – a much higher threshold for stopping and questioning motorists than at routine
checkpoints.5

When selecting sites to conduct checkpoint operations, Border Patrol first seeks approval from
ADOT. As part of the approval process, supervisory Border Patrol agents and ADOT
representatives work together to observe locations where possible checkpoints could operate. When
a location meets ADOT safety standards, they assist Border Patrol in obtaining a permit to operate a
checkpoint at the identified location. This includes drawing site plans that depict the proper
placement of pre-warning signs, and pull-offs where secondary inspections can be conducted safely.
Additionally, ADOT assists Border Patrol with drafting traffic control procedures that address how
the checkpoint should be operated during traffic back-ups and inclement weather.

We verified at the I-19 and SR-90 checkpoints that each had a copy of the approved ADOT permit
on the premises. Each permit was signed by an ADOT official, was valid for one year, and was for a
checkpoint that, “…does not require placement of permanent features in, or excavation of the Right
of Way.”

According to sector officials, ADOT representatives regularly inspect checkpoint operations. When
ADOT finds a deficiency with checkpoint operations, it notifies the Border Patrol by telephone to

5
    U.S. v. Brignoni-Ponce, 442 U.S. 873 (1975).


                                                   4
obtain corrective action. Border Patrol is quick to note that smugglers also know these approved
locations, which makes it difficult to relocate checkpoints in a manner designed to prevent persons
subject to inspection from predicting their next location.

Border Patrol’s Use of Checkpoints

When we reviewed Border Patrol’s interpretation of provisions contained in P.L. 108-334, the
Tucson sector, not Border Patrol headquarters, played the lead role in developing internal policy to
compel sector operations to comply with the law. Officials at headquarters told us that their
guidance to the Tucson sector was to make every effort to comply with the appropriations law, while
maintaining standards for checkpoint operations contained in the Border Patrol Traffic Checkpoint
Policy operations manual.

When we asked headquarters officials whether they could provide official policy memoranda that
outlined their guidance to the Tucson sector, they said that they could not because all guidance
regarding the law was provided verbally by telephone. We then asked whether they received any
policy memoranda from the Tucson sector, they responded that they had not and stressed that all
discussions on the subject occurred verbally by telephone.

The headquarters officials we interviewed believe strongly that the Tucson sector was in compliance
with all three provisions of the law. As evidence, they told us that they regularly corresponded with
the House Subcommittee on how Border Patrol interpreted the provisions. They provided a chain of
emails that demonstrated Border Patrol did indeed share with the House Subcommittee how it
measured the 14-day average, as well as monthly calculations that showed compliance. We also
noted that a House Subcommittee staff member countered the Border Patrol’s method of
measurement with an alternative method for measuring the 14-day average and provided monthly
calculations that showed Border Patrol was not in compliance. Nowhere during the email exchange
did we observe the full House Subcommittee staff advising Border Patrol that its method of
measurement was wrong, and that Border Patrol should adopt the alternative method of
measurement to be in compliance with the law.

Another factor headquarters officials considered in determining whether Border Patrol was in
compliance is guidance the White House provided regarding its views on how the appropriations law
should be interpreted. In a written statement on October 18, 2004, the White House wrote:

       Under the heading ‘Customs and Border Protection,’ the Act purports to require the
       Bureau of Customs and Border Protection to relocate its tactical checkpoints in the
       Tucson, Arizona sector at least an average of once every 14 days. Decisions on
       deployment and redeployment of law enforcement officers in the execution of the
       laws are a part of the executive power vested in the President by Article II of the
       Constitution. Accordingly, the executive branch shall construe the relocation
       provision as advisory rather than mandatory.

The prevailing view of headquarters officials was that this guidance gave them wide discretion as to
how to interpret the statutory language. However, they made it clear that they make “every effort to
comply with their appropriators on Capitol Hill.” Although program managers in the Tucson sector



                                                  5
mentioned the White House’s statement as a factor, they did not assign as much importance to it as
headquarters officials. Rather, they tended to be more concerned with trying to balance the law with
the overall tiered approach to border enforcement and to meeting the legal and safety requirements
set by the Supreme Court and ADOT.

Tucson sector program managers were able to validate many of the statements made by Border
Patrol headquarters officials. However, they disagreed with the assertion that they had not
transmitted any policy memoranda to headquarters regarding their interpretation of the law. Sector
managers produced copies of official policy memoranda that set forth how checkpoint operations are
to be conducted within the Tucson sector and drew heavily from past Supreme Court decisions when
outlining how checkpoint operations should be conducted. For example, a May 19, 2005,
memorandum stated:

         Checkpoints within Tucson sector will be closed for a period of eight hours, every
         14 days. Closures will be random in nature. There will be increased, aggressive
         traffic observations made during the time of the temporary closures.

In formulating this guidance, Tucson sector program managers said that they made every effort to
comply with the appropriations law, while balancing past Supreme Court decisions and ADOT
safety standards. They also sought the opinion of Tucson sector legal counsel.

We analyzed logs that recorded the days and hours of checkpoint operations and were able to verify
that the Tucson sector does conduct checkpoint operations in a manner that closely resembles the
guidance set forth in the May 19, 2005, policy memorandum.6

Different Interpretations of Compliance

We met with staff from the House Subcommittee to obtain their interpretation of P.L. 108-334,
especially of what constitutes a permanent checkpoint and how to measure movement of non-
permanent checkpoints at least an average of once every 14 days.7 Although the discussion was
wide-ranging, one view at the center of the discussion asserted that the intent of the law was to have
Border Patrol “physically pick-up and move” checkpoints to other locations; i.e., simply shutting
down a checkpoint for eight hours and then bringing it back into operation at the same location does
not constitute compliance. This view emphasized that the law uses the word “relocate,” and not
“shutdown” to describe the manner in which checkpoints are to operate in the Tucson sector. By not
relocating and opting simply to shutdown the checkpoints at least an average of once every 14 days,
the checkpoints in the Tucson sector should be considered permanent. In support of this position, we

6
  We also noted during our inspection of the I-19 and SR-90 checkpoints that each had all the mandatory equipment
required by the Border Patrol Traffic Checkpoint Policy operations manual. Both also had all the equipment that was
recommended in the manual, but not necessarily required – in essence, exceeding many of the operational standards.
Lastly, during observation of both day and night operations of the I-19 checkpoint, line agents working the checkpoint
were courteous to motorists passing through the checkpoint and conducted their work in a non-intrusive manner.
7
  Our original report attributed some discussions of legislative interpretation to the “House Subcommittee staff.” We
have revised the report at the request of the Subcommittee to make clear that the views we attributed to the
Subcommittee staff were not the staff’s collective view or consensus. Indeed, the staff advised us that it had no formal
view as a group. We have revised the report to describe the arguments that have contributed to the present controversy
and generated the request for our review without further attribution.


                                                            6
were provided a legal opinion from the Congressional Research Service that tied the issue of
permanency to the duration a checkpoint is open, rather than its location.

Under this same perspective, when measuring the movement of non-permanent checkpoints at least
an average of once every 14 days, if a checkpoint was only open for part of a day (even for one
hour), then it should be considered as being open for a full day. Further, under this formulation,
daily increments were used to determine compliance on a monthly basis, taking the number of days a
particular checkpoint was in operation during a month and dividing that figure by 30 days. As 14
days represents approximately 47 percent of a 30-day month, it was maintained that a violation
occurred in those months in which checkpoints were open in excess of 47 percent.

The method of measurement espoused by this view is substantially different from the method used
by Border Patrol. Border Patrol believes the law provides flexibility for using hourly increments
when calculating the average and does not focus on being compliant with the 14-day average in any
particular month. Rather, Border Patrol measures compliance over a period of months and contends
non-compliance in a particular month is balanced with downed checkpoint operations to achieve an
overall average that meets the 14-day requirement.

Sector officials said physically taking down a checkpoint, transporting it to another approved
location, and setting it up takes an entire shift – approximately eight hours. Smugglers take
advantage of the downtime to clear “stash houses” used to hide illegal aliens and contraband that
have been staged near the checkpoint. As soon as Border Patrol is observed taking down a
checkpoint, lookouts notify smugglers to load their trucks and buses with illegal aliens and
contraband. As soon as the checkpoint is down, Border Patrol told us that the smugglers use the
newly opened route to move their cargo north. Border Patrol agents from the Tucson sector said that
they regularly observed increases in traffic volume as soon as a checkpoint is closed. We asked
whether they had developed a measurement that documents the increase but none where aware of
such a measurement.




                                                 7
The below table contains monthly operational statistics for the I-19 checkpoint from October 2004 to
February 2005. Next, we directly compare the 14-day average figures used to determine
compliance.8

                                I-19 Checkpoint Statistics from October 2004 to
               Date of            October 2004          November 2004          December 2004         January 2005   February 2005
               Month               Hours Up               Hours Up               Hours Up              Hours Up       Hours Up
                  1                    16                    24                     24                    18             16
                  2                    24                    24                     24                    21             24
                  3                    8                     24                      8                    8              16
                  4                    24                    24                      9                    11             24
                  5                    16                    24                     13                    24             23
                  6                    23 m                  24                     15                    24             20
                  7                      24                  23                     24                    16             24
                  8                      16                  15                     24                    24             24
                  9                      24                  24                     24                          0        24
                 10                      24                  24                     24                      24           14
                 11                      24                  24                     24                      24           0
                 12                      24                  24                     24                      13           1
                 13                    24 m                  24                     24                      24           24
                 14                      24                  22                     24                      24           24
                 15                      24                  22                     16                      24           24
                 16                      24                   24 m                  16                      24           24
                 17                      24                     24                   8                      24           19
                 18                    24 m                     24                  16                      24           4
                 19                      15                     24                  24                      24           19
                 20                      16                     24                  24                      24           19
                 21                      13                     24                  24                          0        24
                 22                      16                     11                  24                      12           22
                 23                      24                    0m                   24                      24           16
                 24                      24                     16                  16                      23           24
                 25                      24                     24                  24                      16           24
                 26                    16 m                     24                  24                      9            24
                 27                      13                     19                  24                      13           24
                 28                      19                     24                  11                      24           24
                 29                      11                     8                      0                    24
                 30                    22 m                     24                     13                   22
                 31                      24                                            24                   24

        * m indicates that the checkpoint moved to the other kilometer post location and continued operation.


                             14-Day Average as Calculated Under an Alternative View
         Running Total of
                                         26                     54                     84                  113          140
            Days Open
         Running Total of
                                         31                     61                     92                  123          151
          Days in Month
         Running Average
                                        84%                    89%                    91%                  92%          93%
          of Days Open *

        * Running Average of Days Open = Running Total of Days Open/Running Total of Days in Month




8
    Email exchanges between the House Subcommittee and the Border Patrol were used to develop these tables.


                                                                           8
                              14-Day Average as Calculated by Border Patrol

                   Total Days Over Five Month Period                        151

                   Total Movements or Closures                              11
                   Average Number of Days between
                                                                           13.7
                   Movements of Closures *

                   * Average Number of Days between Movements or Closures = Total Days
                     Over Five Month Period/Total Movements or Closures

When determining compliance with the 14-day average provision, the use of different methods of
measurement produces wide variations. Under the view we have been discussing, the Border Patrol
would be in noncompliance for all five months represented. For Border Patrol to have been
compliant during this period, the running average of days open for each month would have to equal
47 percent or less. By contrast, Border Patrol believes that it was compliant as their figures show
over the five-month period the I-19 checkpoint was either moved or closed on average of every 13.7
days.

Missed Opportunities to Provide Definitive Guidance

Several opportunities to communicate to Border Patrol that its method of measuring the 14-day
average was not in compliance with the law were missed. On March 15, 2005, the Commissioner of
Customs and Border Protection testified on Tucson sector checkpoint operations at a budget hearing
before the House Subcommittee.9 In email exchanges between staff and Border Patrol officials
immediately before and after the hearing, none contained any communication that Border Patrol’s
method of measuring the 14-day average was wrong, and that it should adopt a different method of
measurement to be in compliance. When discussing these observations with certain House
Subcommittee staff members they recalled the email traffic but could not state whether the
exchanges contained any definitive guidance. We were told this type of guidance was provided to
Border Patrol officials verbally by telephone.

Headquarters and sector officials were asked whether they received any written or verbal guidance
from the House Subcommittee subsequent to the budget hearing and they said no. We showed
officials a copy of the letter from the House Subcommittee requesting that we assess Border Patrol’s
compliance with P.L. 108-334. No one said they previously had been told by House Subcommittee
staff what the letter states: that “it [the intent of the appropriations law] is not simply to shut down
the checkpoint for a few minutes or hours in the middle of the night, only to continue at the same
location the next morning.” Officials expressed concern that if this was indeed the intent, then
checkpoint operations within the sector were not in compliance.




9
  At this hearing, the Commissioner assured the House Subcommittee that he was committed to having the Tucson sector
conduct checkpoint operations on “an average” that the legislation required. This was a missed opportunity to articulate
to the Commissioner definitive guidance on how the average should be measured.


                                                           9
Border Patrol is Compliant with the Provision that No Permanent Checkpoints be Constructed

There are no permanent checkpoints in operation by Border Patrol in the Tucson sector. It is unique
in this prohibition. Congress has appropriated funds to Border Patrol in the past for “planning,
constructing, renovating, equipping and maintaining buildings and facilities necessary for the
administration and enforcement of immigration laws.” With such funding, Border Patrol has built
permanent checkpoints as the Fort Brown Station checkpoint located on Highway 4 near
Brownsville, Texas in the Rio Grande Valley sector, and the El Cajon Station checkpoint located on
State Route 94 in the San Diego sector. These permanent checkpoints were built on foundations that
are constructed and anchored in the ground. They also contain infrastructure suitable for landlines
for telephone and computer connectivity, climate controlled work areas and a kennel, heavy
equipment to assist with off-loading trucks that may be carrying illegal contraband, and special
commuter and trucking lanes that improve checkpoint operations and movement of traffic. None of
the checkpoints that we inspected in the Tucson sector had any of these characteristics. Rather, they
were temporary and non-permanent both in structure and form.10

Secondly, ADOT also classifies the Border Patrol checkpoints in the Tucson sector as being
temporary immigration checkpoints that do not require placement of permanent features in, or
excavation of the Right of Way. On an annual basis, Border Patrol must apply for permits from
ADOT for all checkpoints that it operates within the Tucson sector. Border Patrol provided us with
past and present approved permits for all locations where checkpoints are in operation. Under
ADOT criteria, the checkpoints are not permanent.

Border Patrol is Compliant with the Provision that Directs the Submission of a Plan for
Expenditure

A provision of the law directed Border Patrol to submit to the Committees on Appropriations of the
Senate and the House of Representatives a plan for expenditure that includes the locations, designs,
costs and benefits of any proposed Tucson Sector permanent checkpoints. Earlier drafts of the law
requested this report within 120 days of passage of the appropriations Act; however, no such time
restriction was stated in P.L. 108-334. Border Patrol provided a copy of the plan for expenditure, as
well as transmittal cover letters to the committees on appropriations for both the Senate and House
of Representatives, dated May 27, 2005. During our meetings with House Subcommittee staff, they
said they had not received the report, but after some searching, a copy of the report was discovered
that had been received in early June 2005.

The plan proposed permanent checkpoints at three different locations. For each location, the plan
specified why the particular site was selected, along with its anticipated design and compliance with
ADOT’s 20-year traffic projections. The design included the number of inspection lanes, agents,
electronic sensors, and remote video surveillance systems required at each site. Border Patrol also
delineated any possible routes of circumvention that would be monitored by roving patrols or tactical
checkpoints. The benefits of each checkpoint and Border Patrol’s planned community outreach
efforts were also described. Appendices clearly outlined costs for each proposed permanent
checkpoint.

10
   The checkpoint south of San Clemente, California on Interstate 5 (I-5), is an example of what we interpret as being
permanent, see Appendix C.


                                                           10
At Mile Post 17.8 on State Route 85 north of Ajo, Border Patrol would place the smallest of its
requested permanent checkpoints to handle the large number of recreational vehicles that pass
through the area to deter illegal border crossers from traveling in the extreme heat of the West
Desert. Border Patrol would also place a permanent checkpoint on I-19, just south of Green Valley
at Kilometer Post 53. This facility would be the largest in order to handle the heavy volume of
passenger and commercial traffic flowing north from Nogales to Tucson. A third permanent
checkpoint would be constructed on SR-90 at Mile Post 304 near Fort Huachuca. SR-90 has
significant commercial traffic coming from Naco and a permanent checkpoint would be able to
better monitor truck traffic.

The Border Patrol believes that the construction of permanent checkpoints at these three locations
will fully institute the third tier of its overall strategy to control the border within the Tucson sector.
Border Patrol said these permanent checkpoints would serve as an effective deterrent to illegal
border crossers and smugglers attempting to enter the U.S. illegally. The deterrent effect of these
checkpoints is achieved when they are combined with other enforcement efforts to increase the
certainty of apprehension. Illegal border crossers and smugglers who know that they must pass
through a checkpoint may attempt to bypass it on foot or by taking slower secondary routes, where
they can be more easily detected and stopped by tactical checkpoints, roving patrols, ground sensors,
cameras, and other technologies. Officials believe that as the risk of capture increases, smugglers
will eventually change tactics or not cross the border at all. Whether or not Congress agrees with the
proposals, the report submitted complies with its mandate as to its contents.

Border Patrol is Compliant with the Provision that Checkpoints Move at Least an Average of
14 days

Border Patrol’s compliance with the 14-day average provision is based on operational statistics we
obtained for the I-19, SR-80, and SR-90 checkpoints from October 1, 2004 to August 16, 2005.11
Using Border Patrol’s method for calculating the 14-day average, we developed the following table.

                  14-Day Averages Using Border Patrol’s Method of Calculation

                                                      I-19                 SR-80                SR-90

      Total Days Over Five Month Period               319                   319                   319

      Total Movements or Closures                      27                    30                   28

      Average Number of Days between
                                                      11.8                  10.6                 11.4
      Movements of Closures *

     *Average Number of Days between Movements or Closures = Total Days Over 11 Month Period/Total Movements or Closures
The data supports, that for the majority of FY 2005, Border Patrol had either moved or closed these
checkpoints an average of once every 14-days. As the law does not specify a method for calculating

11
   Of the locations approved for checkpoint operations, these three locations are operated the most frequently. The other
locations are used so infrequently that a simple visual inspection of the numbers shows that they are well within the 14-
day average rule.


                                                             11
the average, we believe Border Patrol’s method is reasonable in light of other considerations to
balance legal and safety standards set by the Supreme Court and ADOT.

Concluding Observations

In our judgment, the debate over how to count the 14-day rule misses the point. Neither
mathematical formula has any relevance to the underlying purpose of a checkpoint – whether
apprehensions and seizures are enhanced.

The legislative determination that checkpoints in the Tucson sector must be mobile and cannot be
permanent should be reconsidered in light of this report. First, Tucson is the only sector in the
nation that cannot use permanent checkpoints. There are 33 permanent checkpoints in other sectors
along the southwest border. No one has identified a reason that could explain why permanent
checkpoints, which Congress has funded elsewhere, cannot operate effectively in the Tucson sector.
Second, the Supreme Court language and ADOT impose requirements that largely immobilize
checkpoints. They are not, and no longer hope to be, agile, swiftly sprung traps. Concerns for
safety, avoidance of liability, and constitutional principles require the installation of an extended
apparatus of signs, warning lights, traffic cones and barriers, illumination, and support structure
before a checkpoint can begin operation. Third, a permanent checkpoint can be operated
intermittently to respond to operational intelligence. In this mode, it would function similar to truck
weigh stations that populate the nation’s highways, sometimes open and sometimes closed –
unpredictable.

Permanent checkpoints permit safer, more efficient law enforcement. Better signage and
illumination enhances the driving public’s safety and that of the Border Patrol agents who work the
traffic lanes. Permanent facilities protect the health of agents, their dogs, and apprehended aliens.
Importantly, they allow for permanent connectivity to law enforcement systems, such as: 1)
Enforcement Case Tracking System; 2) Automated Biometric Identification System; and 3)
Integrated Automated Fingerprint Identification System. Having this kind of connectivity at
checkpoints could have a vital impact on the screening of potential smugglers or terrorists.

It is not necessary to prohibit permanent checkpoints in order to encourage the use of alternative
tactics and mobile interior operations. We encountered many opinions about tactical choices during
this review, but very little hard, routinely collected data that would measure which ones succeeded.

Recommendation

We recommend that the Chief, Office of Border Patrol develop performance measurements that
could be used to determine the effectiveness of permanent checkpoints within the Tucson sector.

We extend our appreciation to the Border Patrol and the House Subcommittee staff for the
cooperation and courtesies extended to our staff. Should you have any questions, please call me, or
your staff may contact Robert L. Ashbaugh, Assistant Inspector General for Inspections and Special
Reviews, at (202) 254-4100.




                                                  12
cc:   Secretary
      Deputy Secretary
      General Counsel
      Chief of Staff
      Assistant Secretary for Public Affairs
      Assistant Secretary, Policy
      Executive Secretary
      Assistant Secretary for Legislative Affairs
      DHS Audit Liaison
      CBP Audit Liaison




                                                13
Appendix A

         Picture 1. – The I-19 checkpoint in Santa Cruz county




         Source: Office of Inspector General


         Picture 2. – The SR-90 checkpoint in Cochise county




         Source: Office of Inspector General




                                               14
Appendix B


    Map 1. – Checkpoints in the Tucson Sector

                                                                                                                                             North
                                 I-8                                      I-10 (North to Phoenix)
                tor
              ector




                                                                                         Tucson, AZ
                                           85
      Yuma Sec




                                       State Route
     Tucson S




                                                     St
                                                     ate                                                     I-10 (East to Las Cruces)
                                                          Hw
                       SR-85 MP 58                           y                                  I-19
                                                             86




                                                                                                                         ute 83
                                                                                                    SR-83




                                                                                                                                                         te 80
                                                                                                                 State Ro




                                                                                                                                                     R ou
                 SR-85 MP 18                                                      I-19 KP 53
                                                                                                                                          SR-80




                                                                                                                                                   State
                                                                      6



                                                                                                                           SR-90
                                                                    28




                                                                                                    SR-82
                                                                                 I-19 KP 42
                                                                    y
                                                                 Hw
                                                               te
                                                            Sta




                                                                                                                                  90
                      Lukeville, AZ                                           I-19 KP 25




                                                                                                                                                         191
                                                                                                                         ute
                                                                                                        82



                                                                                                                       Ro
                                                                                                      ut e




                                                                                                                                                     wy
                                                                                                                 ate
                                                                                                    Ro




                                                                                                                                                   eH
                                                                                                               St
                                                                                                   te




                                                                                                                                                         El P
                                                                                                                                                  Stat
                                                                                                Sta




                                                                                                                                                   o Se       as
                                                                                                                                                       ctor
                                                                                    Nogales, AZ
                                                                                                             Naco, AZ
                                 Mexico                                                                                                Douglas, AZ



                Locations approved by ADOT to conduct checkpoint operations

               Location of proposed permanent checkpoints per the plan for expenditure




                                                                            15
Appendix C


   Picture 3. – Permanent checkpoint south of San Clemente, California on I-5




   Source: Border Patrol




                                             16
Appendix D

                                                              U.S. Department of Homeland Security
                                                              Washington, D.C. 20229


                                                              U.S. Customs and
                                                              Border Protection


                                                          October 11, 2005



MEMORANDUM FOR RICHARD L. SKINNER
               INSPECTOR GENERAL
               DEPARTMENT OF HOMELAND SECURITY

FROM:                  Acting Director
                       Office of Policy and Planning

SUBJECT:               Response to the Office of Inspector General’s Draft Letter Report
                       on Border Patrol’s Compliance with Public law 108-334 and the
                       Use of Checkpoints within the Tucson Sector

Thank you for providing us with a copy of your draft letter report entitled “A Review of
Border Patrol’s Compliance with Public Law 108-334 and the Use of Checkpoints within
the Tucson Sector” and the opportunity to discuss the issues in this report. The U.S.
Customs and Border Protection (CBP) appreciated the opportunity to work with the
auditors in constructing a balanced and accurate document. CBP agrees with the overall
substance and findings of the report. The importance of resolving the issues prompting
this review and highlighted in the report reiterates the importance of establishing
permanent checkpoint operations in the Tucson Sector. Permanent checkpoints permit
safer, more efficient law enforcement.

As the auditors articulated, Border Patrol checkpoints deny the criminal element’s access
to routes of egress from the border to major cities within the United States. Both
permanent and tactical Border Patrol checkpoints are a critical function in support of our
national strategy of preventing terrorists and weapons of terror, as well as illegal aliens
and illegal drugs, from entering the United States.

The Office of Inspector General (OIG) recommended that the Chief, Office of Border Patrol
(OBP), develop performance measurements that could be used to determine the
effectiveness of permanent checkpoints within the Tucson sector. CBP concurred with the
recommendation and is taking action to address this issue. In the Government
Accountability Office’s (GAO) audit report, BORDER PATROL: Available Data on Interior
Checkpoints Suggest Differences in Sector Performance, GAO-05-435, dated July 2005,


                                             17
GAO recommended that OBP develop performance measures for checkpoints. In
response, OBP developed and submitted for approval, a performance measure specifically
addressing checkpoint operations. Complete implementation of that measure is scheduled
for fiscal year (FY) 2006. During FY 2006, OBP and the Tucson Sector will develop
performance measures specifically related to the effectiveness of checkpoints in Tucson.

With regard to the classification of the draft report, CBP has not identified information within
the report requiring restricted public access based on a designation of “For Official Use
Only.”

Attached are technical comments that relate to statements that need to be clarified prior to
the finalization of this report. If you have any questions regarding this response, please
contact me or have a member of your staff contact Ms. Lynn Richardson at (202) 344-2953.


Attachment




                                              18
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
